HHS/OIG, Audit -"Review of Medicaid Long-Term Nursing Care Payments for Individuals with both Medicare and Medicaid
Coverage,"(A-04-04-02002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Long-Term Nursing Care Payments for Individuals with both Medicare and Medicaid Coverage," (A-04-04-02002)
August 12, 2004
Complete
Text of Report is available in PDF format (527 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the Florida Agency for Health Care Administration (Agency) inappropriately
made Medicaid payments for nursing facility care for dually eligible beneficiaries while CMS also made Medicare SNF payments.  We
found that the Agency generally made proper Medicaid payments for dually eligible beneficiaries residing in a SNF.  The
Agency relies on the nursing facilities to provide appropriate Medicare SNF admission and discharge information on the
claims submitted.  The Agency recently implemented a procedure to match Medicare payment data to Medicaid nursing
home payments to identify potential errors.